                             !-
    '''''' "s

                     DEPARTMENT OF HEALTH &. HUMAN SERVICES                  Office of Inspector General


4''',IIQ

                                     "I'r
                                                                             Memorandum
                                      0()
       Date

                         /sl. Bryan B. Mit()r:
           From
      Richard P. Kusserow
                      Inspector General


           Subject    OIG Final Report:          Assessment and Documentation of Youth at
                      Risk of Suicide        P-09-86-00l0l
                      Jean K. Elder , Ph.

                      Acting Assistant Secretary

                        for Human Development Services


                      Attached for your information is our final inspection report
                      enti tled " Assessment and Documentation of Youth at Risk of
                      Suicide. " This . is the third in a series of three reports
                      reflecting the findings of a national program inspection on
                      youth suicide conducted at the request of the Secretary
                      Task Force on Youth Suicide. The other two reports , entitled
                       Youth Suicide " and Inventory of State Ini tiati ves In
                      Addressing Youth Suicide, " have been sent previously under
                      separate memorandum.

                      Our major findings     are:
                          Few respondents use formal tools to screen for risk of
                          suicide. Al though many respondents were very receptive to
                          the idea that HHS develop a screening tool , some were
                          skeptical that the Department could develop an effective
                             tool.
                          A screening tool would be most useful to service providers
                          who do not have a specific mental health focus or do not
                          routinely work with clients at risk of suicide. Training
                          in the use of such a tool is essential.

                             Wi th the exception of hotlines and a few school districts

                             service providers do not maintain statistics on youth

                             suicide.
                             Information on individual clients can usually be shared

                             wi tha signed release. Sharing of aggregate data is

                             generally not a problem.


                       If you have any questions, please have your staff contact

                       Ta Zitans at 472-5340.



                       Attachment
                       cc:     Dodie Livingston
                               Administration for Children , Youth

                                 and Families

                        ASSESSMENT AND DOCUMENTATION

                        OF YOUTH AT RISK OF SUICIDE


 INTRODUCTION

 The Office of Inspector General (OIG) was asked to conduct a

 quali ta ti ve nationalprogram inspection of youth suicide
 which would supplement the work of the Department of Health

 and Human Services (DHHS) Task Force on Youth Suicide. The
 primary focus of the inspection was to (a) assess the extent

 to which BHS-funded programs are involved in efforts to

 prevent youth suicide, (b) review how states and selected

 communi ties are responding to the problems associated wi 

 youth suicide and (c) identify barriers and gaps which

 hinder delivery of services to suicidal youth and/or their

 families. The results of this inspection are reflected in

 two reports, enti tIed  Youth Suicide and Inventory of State
 Ini tiati      ves in Addressing Youth Suicide
 In addi tion, this special report has been prepared for Mark
Rosenberg, M. D., Chief of the Violence Epidemiology Branch,
Centers for Disease Control (CDC). During his review of the
original inspection design, Dr. Rosenberg indicated that
querying respondents on three issues would be helpful in his
work at CDC. Thus, the OIG inspection team asked
respondents the following three questions:

la. If HHS developed a screening tool to identify youth at

    risk of committing suicide, would it be helpful to you?

    (Explain yes or no.


  b. If yes, would you actually use it?           (Explain)
         What kinds of records or documentation do you maintain

         on youth at risk of suicide (e.g., clinical/client
         records i aggregate statistics/analysis)?
         Do you share this information with any other agencies or

         practi tioners? Why or why not?
This report 
       eflects responses to these questions. Our
findings are based on 348 interviews. Of
in- person interviews were conducted throughthis total, 170
                                              visits to 10
communi ties in 9 states. In a telephone survey of randomly
selected communi ty service agencies (most of whom were
funded by HHS), OIG staff interviewed an addi tional 178
persons. In all,   we talked to persons in 183 communi        ties
throughout all 50 states.

MAOR FINDINGS
   Almost all mental health professionals and many other
   service providers report that they look for indications
   of suicide risk. Their approach is often informal and
   subjecti ve, however, wi th reliance on clinical
   experience and judgment to detect warning signs. A few
   use formal tools to screen for risk of suicide.

   Al though 42% of the respondents report that they would
   use a screening tool developed by the Department and
   another 42% report they might use such a tool, several
   respondents are skeptical that the Department could
   develop an effective     tool.
                               BHS grantees do not want the
   Department to require mandatory use of a screening tool.
   A screening tool is seen as being of greatest value to
   service providers who work with youth, but do not
   routinely encounter youth at risk of         suicide.
                                                    Mental
   heal th professionals and staff working wi th hotlines  and
   crisis intervention programs express less interest in
   using a tool to screen individual clients, but perceive
   its utility to help with training and communi
    education.  School officials are skeptical that they
   would be allowed to use a screening tool due to policies
   on privacy and requirements for parental permission.
    It is important that anyone using a screening tool

    recei ve adequate training on(a) how to use       it,
    (b) appropriate demeanor, attitudes and interviewing

    approaches and (c) what to do if risk of suicide is

    detected.
    Wi th the exception of hotlines, service providers do not
    keep statistics related to      suicides.
    Most agencies share information on clients selectively,
    as long as clients have signed release forms. Many ' have
    policies allowing them to share information without a
    release if the client is judged to be at risk of harming
    himself     r others.
                        Release forms are not an issue when
    sharing aggregate data.
 CURRENT USE OF SCREENING TOOLS

 Almost all mental health professionals and many other

 service providers interviewed during this study report

 that they look for indications of suicide risk among

 their clients. Their screening approach is often

 informal and subjective with a heavy reliance on
 clinical experience and judgment to detect warning
 signs.   Respondents also rely on patient self-reporting
 during the intake process, as well as routine mental

 heal th status examinations and structured
 few use formal tools to screen for risk of interviews.
                                             suicide.
 Some respondents have developed their own tools  for use
 wi thin their agencies.
 The OIG inspection team did not systematically inventory
 or evaluate the various screening tools currently in
 use.  However, the following tools were identified by
 some respondents:


      Aaron Beck Depression Inventory (mentioned most

      frequently)
     Taylor Johnson Temperament Scale


     Zung Test


     Screen developed by Dan Leterri, currently at the
     National Insti tute onAlcohol Abuse and Alcoholism
     Screen developed by Tom Barrett, psychologist
     involved wi th the Suicide Prevention Allied
     Regional Effort (SPARE) and Cherry Creek School
     District in Colorado

     Screen developed by Elinor Bar, Suicide Prevention

     Center, Pueblo, Colorado

     Screen used by the Los Angeles Suicide Prevention

     Cen ter


     Screen developed by Mary Jane Rotheram , Columbia
     Uni versi ty
OHDS has funded grantees to work wi th runaway and
homeless youth programs to identify and prevent youth
from committing suicide.   Different approaches are being
tried, including the development of screening
                                               tools.
Several runaway programs in New York City are currently
screening all clients for risk of suicide, using the
screen developed by Dr. Rotheram, listed above.
                                                  This
tool, designed for paraprofessionals and service agency
staff with Ii ttleor no mental health background,
identifies risk, assesses the immediacy of the problem

and helps workers begin to structure an intervention
strategy.  Staff using the screen participate in a short
formal training program wi th a follow-up session after
they have screened a few clients. Participating runaway
programs are universally supportive of , this initiative.
II. INTEREST IN BHS DEVELOPMENT OF A SCREENING TOOL


   Reaction was generally positive to a possible BHS

   ini tiative to develop a screening tool which would
    identify youth at risk of suicide. Forty-two percent of
    the respondents who answered the question indicated they
   would welcome and use such a tool, while an additional
   42% said they might find such a tool useful under
   certain circumstances. By far, the most enthusiastic

   response came from service providers without a specific
   mental health or suicide prevention focus. As
   following table indicates, the highest interest the
                                                    in
   acquiring a new screening tool was among (I) communi ty
   service providers such as runaway progrars, juvenile
   justice agencies and multi-service youth agencies and
   (2) health providers such as communi ty and migrant
   heal th centers, family planning programs and adolescent
   health clinics. . We would welcome anything that would
   help us, . was a common response.

                   INTEREST IN A NEW SCREENING TOOL


           Res   onden ts

     Communi ty Agencies               62%     31%

     Heal th Providers                 54%     34%     13%

    Hotlines/Crisis Programs           25%     40%     35%

    Mental Health Providers            23%     57%     19%
    School s                           15%     46%     38%
    All Respondents             268    42%     42%     16%


 As the above table indicates, respondents who are more

 routinely confronted wi th suicidal youth (mental health

 professionals, crisis interv ntion programs and hotlines)

 were less interested in a new screening     tool.
                                                 Most
 indicated they are comfortable wi th their current  methods

 and procedures of identifying high risk youth.
 emphasized that a tool woulJ never take the placeMany
                                                    of

 clinical intuition and judgment.
                                    Typical were the
 comments of two mental health professionals:


     We always welcome something new, but I don'
     would help too much. If you' ve been in thist field
                                                   think it
     awhile, you sense when there' s a problem.

     I might use     it, knowing it
                                 is noL going to give me
    the whole answer. I  wouldn' t use it in lieu of my
    clinical knowledge, but as a supp ement.
Several mental health and crisis intervention
professionals who expressed an interest in a screening
tool indicated it would be useful in their efforts to
educa te and train people in their communi ties, as opposed
to its utility in clinical diagnostic work with
indi vidual    clients.
                      Some typical comments:
     It would have value in elevating an awareness among

    nonprofessionals--the lay public. Clinicians are

    very familiar with the classic signs, but there is a

    defini te need in the schools and in the community at

    large. ­
     I can rely on my gut feeling because I' ve been in
    the business for 18 years, but to train others I need
    a too   1 . "



     It would be good for front line service providers.

    Once we can get kids into a clinical setting, we

    comfortable we can sense suicide as a problem, but so

    many suicidal kids never get that far.

School off icials also expressed less interest in a tool.
Many emphasized that school policies preclude staff from
administering any type of individual assessment or survey
wi thout administrative or school board approval or
parental permission. Noted one official, - Schools have
strict laws on privacy and questionnaires. I would have
a concern about objections from parents.    School
officials also questioned whether they would have time to
administer a screening tool, given heavy workload
demands.
Despi te general support for the concept of developing a
screening tool, there was considerable ambivalence and
some skepticism that the Department could produce a tool
that would be a better predictor than is already
available.   Several respondents indicated they would want
to evaluate any tool HHS might develop and compare it
wi th their own screens before judging its utility. Some
typical comments:

     Lots of people are trying to develop an effective

    screen that works with kids, but so far nobody' s been

    able to come up wi th one.


     I can' t imagine you could come up wi th something we
    don t already know. It'           s the subtleties that drive
    us crazy. Suicide is a            very difficult outcome to
    predict. .
               . "



Other respondents questioned the value of using screens
to predict youth at risk of suicide, noting in particular
that screens which have worked well with adults have had
less utility when applied to  teens.    Respondents stressed
tha t the effectiveness of screens is dependent upon
accurate self-reporting, frequently a problem among
adolescents.    Some mental health practi tioners noted that
thei r ini tial impressions often change after they have
had a few sessions with a client and that a screen only

measures a client' s behavior and atti tude at a given

time. -  These are volatile kids and circumstances can

change quickly, " noted one researcher. There were some

suggestions that BHS should put resources into

identifying and evaluating existing tools, as opposed to

 reinventing the wheel.


Respondents also stressed that no tool will identify all

high risk youth. " We can add one more tool to the

arsenal, but , ll never catch them all, - noted a school

official.  Other typical comments included:
     Most tools don' t measure nonverbal cl ues. A screen
    would be useless if it told us that most or all the

    kids have some risk factors. We already know that.

    The challenge is figuring out who is going to go

    ahead and do it.


     Suicide is very hard to predict. I am concerned

    tha t any tool HHS developed would be too general and

    simplistic to be of much value. We could end up

    registering lots of false positives, while others

    would be missed. This could foster a false

    complacence. ­
     Beware of absolute
    there
                        tools.  Experience has shown us
          s no clear-cut scale to really determine risk.
    When a person is in crisis, he doesn' t want someone
    interrogating him. He becomes frightened and will
    hang up.
If HHS proceeds with the development of a screening tool,
respondents suggested that the following be considered:
   Training      If you re going to use a tool, you can'
   just give it to people and expect it to work, - noted

   one researcher. Several respondents stressed that it

   is essential to train anyone screenin for problems

   as sensi ti ve as suicide ri sk in (I) how to use the
   screen, (2) appropriate demeanor, attitudes and
   approaches to asking questions in nonthreatening ways
   and (3) what to do if risk of suicide is detected.
   It is important that screeners address their own
   feelings about suicide, since this is an issue that
makes many people nervous and uncomfortable.

Furthermore, screens do not work well if users

believe there are no constructive treatment option

 available.  Noted one clinician, " If someone doesn'
know what to do or where to go, he won' t identify a

kid at risk. There is a tendency to deny the problem

if nothing can be done about it. . It was reported

that the benefits of using a tool often extend beyond

a diagnostic value by stimulating staff interest in

and demand for more training on issues related to

suicide.   Training should be ongoing because users
become complacent when they use the same tool

repeatedly. It was suggested that revising the

forma t occasionally helps resolve this dilema.

Length and Complexity   Many respondents said they

would use a tool only if it were simple and did not

take too long to administer.  Some said they would be
willing to incorporate a few questions into their

current intake forms.
Content     A tool should go beyond diagnosis of risk.
There should also be components which assess the
lethali ty and immediacy of risk, as well as helping
the interviewer decide what to do when a high risk

youth is identified.

Vol untary Screening BHS grantees emphasi zed they
would oppose any mandatory requirement to screen

clients for risk of suicide.    Noted one state
official, " Please don' t tie dollars to it or restrict
us by mandating your tool over something that might

better meet our needs. " A family planning grantee

said they would willingly use a screen -if we had the
I uxury of an optimal program, but not under the
reali ty of our current budget si tuation. "
              ti vi ty There was considerable concern

Cul tural Sensi
that a tool be sensitive to various ethnic and
socioe onomic groups. Many respondents said they
would review any tool the Department developed to

determine whether it could be adapted to their

particular client groups.

III.     MAINTAINING RECORDS AND STATISTICS ON YOUTB SUICIDE

         AND SHARING INFORMTION
       Almost all the service providers keep individual case

       files on clients. This is true of virtually all the

       heal th and mental health service providers and most of
       the runaway programs and other youth service agencies.
       Any information related to risk of suicide is documented
       in the case file. Almost all the service providers
       report that they selectively share relevant information
       on a client with parents and other service providers, but
       only if the client signs a release. Many indicated,
       however, that they make exceptions to this policy if a
       client is judged to be in imminent danger of harming
       himself or others, which would include risk of suicide.
       Obtaining a release from individual clients is not seen
       as a problem. Often clients are informed of agency
       policies with regard to conf identiali ty when they begin
       recei ving services.
       Many agencies report that they maintain statistics, but

       do not systematically collect data with regard to suicide

       ideation, gestures, attempts or completions. Some
       indicated they could manually tabulate this information,
       but the process would take considerable time.   Several
       respondents said that they had the capabili ty to collect
       this type of information, but nobody has ever made such a
       request.   Sharing aggregate information is generally not
       a problem.

       The exceptions are the hotlines. Most hotlines keep a

       record of each telephone call received and can report in

       the aggregate the number of calls in which suicide was

       the primary presenting problem. Most do not record the
       nature of the call by an age category, however, so it

       would be difficult to determine how many calls were from

       youth.  Furthermore, the hotlines emphasize that their
       report of suicide calls is very conservative, because the

       presenting problem is often something else and suicide is

       an underlying issue.
